August 25, 2008

PAUL E. VOGEL
MANAGING DIRECTOR, GLOBAL BUSINESS AND SENIOR VICE PRESIDENT

JOSEPH E. NASH
EXECUTIVE DIRECTOR, GLOBAL FINANCE AND BUSINESS ANALYSIS

SUBJECT:         Audit Report – Controls Over the International Reconciliation System
                 (Report Number CRR-AR-08-006)

This report presents the results of our audit of controls over the Postal Service’s
International Reconciliation System (IRS) (Project Number 08RG007CRR000). The
Postal Accountability and Enhancement Act of 2006 (the Postal Act of 2006) requires
the U.S. Postal Service Office of Inspector General (OIG) to audit the data collection
systems and procedures the Postal Service uses in their pricing process. This is a self-
initiated audit that addresses both financial and operational risks. Click here to go to
Appendix A for additional information about this audit.

Conclusion

In implementing the IRS, the Postal Service streamlined the international mail
reconciliation process and made progress in improving system controls. Through
weekly teleconferences, management is gathering requirements to develop standard
operating procedures and IRS reports. The system automates manual input of letter bill
data and eliminates the use of multiple systems to conduct research for reconciliation.

However, the system is still evolving and management did not identify all requirements
prior to its deployment. This allows incompletely validated records to be placed into the
production database. We also noted inconsistent reconciliation procedures within
International Reconciliation Units (IRUs) for verifying volume data, and for processing
NIL,1 missing, and duplicate dispatch records. Manually correcting and processing the
existing incomplete records and improperly flagged duplicate dispatches could cost the
Postal Service about $666,765 and $192,703, respectively, in additional personnel
resources. Inconsistent procedures employed in handling duplicate and NIL dispatches




1
 NIL dispatches have zero weight and zero piece count within the record. NIL dispatches should be verified via a
verification note to the Foreign Postal Administration, as these dispatches do not get weight estimates and are
considered never sent.
Controls Over the International Reconciliation System                                       CRR-AR-08-006


represent about $11,726,0742 in assets at risk. Timely and consistent reconciliation
procedures assist in protecting the integrity of management data used in making pricing
decisions.

Incomplete System Requirements

Edit and Processing Requirements

The IRS transmitted processed data containing errors in critical data elements such as
dispatch date, mail subclass, and item count and weights to the end-user system. This
occurred because edits that identify errors in these data elements were not included in
the initial system requirements. From deployment on February 2, 2008, until
April 18, 2008, end users within the International Accounting Branch (IAB) identified
over 356,000 records with errors. These records remained in pending status and
required manual updates before the Postal Service could further process them for
billing. Manually correcting the records with errors could cost as much as $666,765.
Developing a corrective action plan for these records would assist in meeting
established billing cycles. Click here to go to Appendix B for our detailed analysis of
this topic.

We recommend the Executive Director, Global Finance and Business Analysis, direct
the Director, Global Systems Management, to:

1. Work with all stakeholders, including International Accounting Branch managers, to
   update the requirements analysis to ensure all appropriate business rules and edits
   are incorporated.

2. Ensure all significant issues identified during customer acceptance testing are
   corrected before placing the software release into production.

We recommend the Director, Global Systems Management, direct the Manager,
Network Operations, Business Systems Portfolio, to:

3. Build and run comprehensive test files for customer acceptance testing that
   incorporate all system requirements when the updated requirements analysis is
   complete.

4. Promptly incorporate edit requirements the end users provide into International
   Reconciliation System functionality.




2
  Assets at risk were calculated by applying an average Special Drawing Rights factor (i.e., foreign exchange factor)
for the period February 2 through April 18, 2008, to parcel and letter class volume data. Using 15 months of actual
dispatch data, we calculated an average dispatch value based on mail type and transportation class. We applied the
average dispatch value by mail type and transportation class to the 8,136 duplicate and 184 NIL (8,320 total)
dispatches identified in IRS from February 2 through April 18, 2008, to obtain the value of the records.


                                                          2
Controls Over the International Reconciliation System                   CRR-AR-08-006


We recommend the Managing Director, Global Business and Senior Vice President,
direct the Executive Director, Global Finance and Business Analysis, to:

5. Develop an action plan to update unprocessed records.

Duplicate Dispatch Requirements

The IRS classifies dispatches with unequal weight and receptacle count values as
duplicate dispatches when the dispatch number, origin country, origin city, destination
country, destination city, mail category, and subclass are the same. Because the
system requirements did not include dispatch weight and receptacle counts as criteria to
identify duplicate dispatches, IRU personnel must manually research and verify records
improperly flagged as duplicates. This extra manual research could cost approximately
$192,703 in additional personnel resources. Click here to go to Appendix B for our
detailed analysis of this topic.

We recommend the Director, Global Systems Management, direct the Manager,
Network Operations, Business Systems Portfolio, to:

6. Revise the system logic to include comparison of weight values and receptacle
   counts in identifying duplicate dispatches.

Management Reports Requirements

The IRS does not provide user reports required to manage critical reconciliation
processes. Reports needed for timely and accurate reconciliation include reports of
delinquent verification notes (VN), verified dispatches, missing dispatches, NIL
dispatches, and duplicate dispatches. According to Global Business Systems (GBS), it
did not design the IRS to be a reporting system. GBS depends on the Enterprise Data
Warehouse for all reporting needs; however, the Enterprise Data Warehouse data may
not provide all necessary information for reconciliation. Additional user reports could
assist records unit personnel in identifying and resolving reconciliation issues in a timely
manner and in reducing the risk of incorrect billings and erroneous settlements. Click
here to go to Appendix B for our detailed analysis of this topic.

We recommend the Director, Global Systems Management, direct the Manager,
Network Operations, Business Systems Portfolio, to:

7. Develop management reports within the International Reconciliation System to
   provide all necessary information for timely reconciliation, such as delinquent
   verification notes, verified dispatches, and duplicate dispatches.




                                                        3
Controls Over the International Reconciliation System                CRR-AR-08-006



Inconsistent Operating Procedures

During our IRU visits, we observed disparities in reconciliation processes. Global
Finance and Business Analysis has not defined and documented standard operating
procedures (such as initiating VNs and selecting volume data) for these processes.
Management decided that developing an operations guide or standard operating
procedures was not feasible during the implementation of IRS. Non-uniform operating
procedures for reconciliation processes can lead to incorrect selection of volume data
and inadequate verification of dispatches, resulting in erroneous settlement charges that
could negatively affect international pricing.

For the period February 2 to April 18, 2008, there were 8,136 duplicate dispatches and
184 NIL dispatches, respectively, in the new system. Without standardized operating
procedures, these dispatches risk being incorrectly processed. The duplicates and NIL
records represent about $11,726,074 in assets at risk. Click here to go to Appendix B
for our detailed analysis of this topic.

We recommend the Managing Director, Global Business and Senior Vice President,
direct the Executive Director, Global Finance and Business Analysis, and the Executive
Director, International Operations, to:

8. Create a standard operating procedures guide for the key reconciliation processes
   that includes (a) establishing a selection hierarchy for volume data during the
   verification of dispatches; (b) creating and responding to verification notes; and
   (c) identifying and processing NIL, missing, and duplicate dispatches.

Management’s Comments

Management concurred with the findings, monetary and non-monetary impact, and
recommendations 1 through 6 and 8. Management will implement corrective actions for
recommendations 1, 2, 4, and 6 by September 30, 2009. Management implemented
corrective action for recommendation 3 on August 18, 2008, and will implement
corrective actions for recommendation 8 on December 31, 2008. After we received the
written comments, management notified us that corrective action for recommendation 5
will also be completed by December 31, 2008.

Management did not concur with recommendation 7, stating that retaining data in IRS
would affect response time for the end user. However, management has developed
requirements for delinquent verification notes, verified dispatches, and duplicate
dispatches. The associated change management processes are scheduled to be
completed by September 30, 2009. Management agreed to the monetary and non-
monetary impacts identified in this audit. Management’s comments, in their entirety, are
included in Appendix D.




                                                        4
Controls Over the International Reconciliation System                CRR-AR-08-006


Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendations 1
through 6 and 8. The OIG considers recommendations 1 through 5, 7, and 8 significant,
and therefore requires OIG concurrence before closure. Consequently, the OIG
requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation the recommendations can be closed. For significant
recommendation 7, the Postal Service plans to provide additional system functionality
for processing delinquent verification notes, verified dispatches, and duplicate
dispatches. Therefore, we do not plan to pursue this recommendation through the
formal audit resolution process.

We will report $859,468 in monetary impact and $11,726,074 in non-monetary impact in
our Semiannual Report to Congress.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Paul Kuennen,
Director, Cost, Revenue and Rates, or me at (703) 248-2100.


   E-Signed by Tammy Whitcomb
 VERIFY authenticity with ApproveIt




Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Lynn Malcolm
    George W. Wright
    Michael J. Nappi
    Harold E. Stark
    Ronald L. Middlebrooks
    Daniel S. Stirewalt
    Katherine S. Banks




                                                        5
Controls Over the International Reconciliation System                                       CRR-AR-08-006


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Network Operations Management is developing the IRS, along with the International
Receipt System and the International Dispatch System, to assist in streamlining the
processing of inbound and outbound international mail and integrating these systems
with domestic mail systems.

Prior to implementing the IRS, IRU personnel at International Service Centers (ISCs)
manually collected, reconciled, and modified international mail information and
documents. IRU personnel adjusted volume data (pieces and weights) as needed and
provided VNs to Foreign Postal Administrations (FPA) to reconcile irregularities in the
preparation, dispatch, and receipt of international mail. Personnel manually entered all
inbound letter class and parcel post volume data into the IAB web application for further
processing and billing. The IRS automates many of these processes and expects to
accelerate the reconciliation process, which could result in collecting terminal dues and
Parcel Post® and Express Mail® service payments previously neglected due to the time
spent manually processing large inbound VN volumes. During calendar year
(CY) 2007, international reconciliation included approximately 13.5 million inbound and
outbound international records.

IAB personnel use inbound volume data to compute settlement charges (international
revenue) from FPAs. IRU personnel may adjust terminal dues and Parcel Post and
Express Mail service payments3 for the discrepancies resolved through the VN
notification process. In FY 2007, the Postal Service collected about $2 billion in
international revenue.

The Postal Service also uses the inbound volume data from IAB as an input in
developing the International Cost and Revenue Analysis (ICRA), which reports on the
revenue, pieces, weight, costs, and contributions of international mail. Management
uses the ICRA in the pricing process and the PRC issues an annual report to Congress
based on its evaluation of the ICRA.

The Executive Director, Global Finance and Business Analysis, is the project sponsor
for the IRS. The Manager, Network Operations and Business Systems Portfolio,
provides software development support. IRS data resides on an Oracle database
Network Operations and Business Systems manages.




3
  Foreign Postal Administrations make these payments to the Postal Service for sorting, transporting, and delivering
international mail to its final United States destination and vice versa.


                                                          6
 Controls Over the International Reconciliation System                                 CRR-AR-08-006


 OBJECTIVE, SCOPE, AND METHODOLOGY

 Our objective was to evaluate the adequacy of controls in the IRS. To accomplish our
 objective, we reviewed available policies and procedures, system documentation, and
 architectural layouts and designs. We interviewed key officials in Information
 Technology Portfolio Management for Network Operations Business Systems and
 Global Business; conducted site visits to selected ISCs and observed operations; and
 interviewed personnel at the IAB and the St. Louis Integrated Business Service
 Solutions Center. We participated in a system demonstration the contractor hosted and
 compared data records from input files to output produced by the IRS for the same
 records.

 We conducted this audit from November 2007 to August 2008, in accordance with
 generally accepted government auditing standards and included such tests of internal
 controls as we considered necessary under the circumstances. Those standards
 require that we plan and perform the audit to obtain sufficient, appropriate evidence to
 provide a reasonable basis for our findings and conclusions based on our audit
 objective. We believe that the evidence obtained provides a reasonable basis for our
 findings and conclusions based on our audit objective. We discussed our observations
 and conclusions with management officials on July 10, 2008, and included their
 comments where appropriate. We used manual and automated processes to assess
 the reliability of computer-generated data used for our analysis and concluded the data
 were sufficiently reliable to support the audit objective.

 PRIOR AUDIT COVERAGE

                                           Final
                       Report             Report              Monetary
 Report Title          Number              Date                Impact                Report Results
New York             FT-AR-08-005      January 25,           $13.7 million   Volume data used to bill foreign
International                          2008                                  postal administrations for inbound
Service Center –                                                             Express Mail and Letter Class
Inbound                                                                      service was not always accurate.
International Mail




                                                         7
Controls Over the International Reconciliation System                                          CRR-AR-08-006



                                   APPENDIX B: DETAILED ANALYSIS

Overall Application Controls

With implementation of the IRS, the Postal Service has made advances in improving the
reconciliation process. Management has eliminated many of the manual processes for
inputting data. However, the IAB has suspended the processing of over 356,000
records it received from the IRS because key information is missing or inaccurate. This
occurred because management did not identify all system requirements prior to
deployment. Developing additional management reports and implementing standard
reconciliation procedures could assist in reconciling international mail records more
efficiently.

Incomplete System Requirements

Edit and Processing Requirements

We determined the Postal Service did not further process 356,5594 of over 3.7 million
(nearly 10 percent) records the IRS provided to IAB users from February 2 to April 18,
2008, due to missing or incorrect information. The records required manual intervention
to properly prepare the records for billing. This includes 44,067 records that had
missing or invalid dispatch dates and 312,492 records with other edit errors, as
described below.

                Table 1. Records with Incomplete or Inaccurate Dispatch Date

                                                                                                   No. of
                Type/Error Code                              Description                          Records
              Letter bill
                     2                    Invalid dispatch date                                       16,375
                     9                    Future dispatch date not allowed                                14
                                           Subtotal                                                   16,389
              Parcel bill
                    1                     Future dispatch date not allowed                                 86
                                           Subtotal                                                        86
              Express Mail
              service
                    11                    Dispatch date less than current date                            19
                    12                    Missing dispatch date                                       27,573
                                           Subtotal                                                   27,592
                   Total                                                                              44,067

The January 24, 2008, customer acceptance test reported the dispatch date errors were
the reason selected test records were not processed; however, management deployed
the application system on February 1, 2008, without correcting the production software

4
    We did not have the sufficient weight and piece data to calculate the collective value of the 356,559 records.


                                                             8
Controls Over the International Reconciliation System                                 CRR-AR-08-006


for this error type. On March 28, 2008, management approved a system change
request to correct the dispatch date error. According to the change request project
plan, this change is to be implemented in August 2008. In the meantime, IRU personnel
must manually correct the erroneous records by consulting mailing manifests for the
correct dispatch date. These records need timely correction to meet established billing
cycles.

We also noted 312,492 records with edit errors that IAB did not process for billing. This
occurred because edits that identify errors in these data elements were not included in
the initial system requirements. We have summarized these records, which also require
manual corrections to complete processing in IAB, below.

                              Table 2. Records with Other Errors

                                                                                         No. of
            Type/Error Code                             Description                     Records
          Letter bill
                 3                 Dispatch Number Invalid                                   543
                11                 If Letter Class and Articles Other (LCAO)
                                       bags are greater than 0 then LCAO weight
                                       must be greater than 0                                 19
                14                 NIL indicator is not equal to ‘Y’ but all
                                       amounts are equal to 0                                185
                22                 Mail subclass must be ’UA’ ‘UB’ ‘UC’ ‘UD’ ‘UE’
                                       ‘UF’ ‘UG’ ‘UH’ ‘UI’ ‘UL’ ‘UM’ ‘UN’ ‘UP’ ‘UR’
                                       ‘UT’ ‘UX’ ‘UZ’ ‘TZ’ or ‘TT’                             1
                                     Subtotal                                                748
          Parcel bill
                 2                 Record not on rate file                                     5
                 3                 Origin country and city not on the City Table              16
                 5                 Origin city not on City Table                              16
                 7                 Destination country and city not on City Table             10
                 9                 Dispatch number not numeric                                29
                                   Parcel count must be greater than 0 for
                10                    subclass CA, CD, CE, CF, CN, CV, and CZ                803
                                   Gross weight must be greater than 0 for
                11                    subclass CA, CD, CE, CF, CN, CV, and CZ                 32
                                   NIL indicator is not equal to ‘Y’ but all
                16                    amounts equal 0                                         23
                                    Subtotal                                                 934




                                                        9
Controls Over the International Reconciliation System                            CRR-AR-08-006


                                        Table 2. (continued)

                                                                                   No. of
            Type/Error Code                             Description               Records
          Express mail
          services
                                    Item count and kilo weight must be greater
                14                     than 0                                       179,248
                23                  Origin city not on table                             15
                26                  Destination city equals spaces or numeric           113
                27                  Destination city not on table                        27
                28                  Mail category equals spaces or numeric              216
                29                  Subclass equals spaces or numeric               130,505
                31                  Dispatch number not numeric                         306
                56                  Duplicate receptacle                                205
                99                  Undefined                                           175
                                      Subtotal                                      310,810
              Total                                                                 312,492

According to best practices, management should test all system requirements and
subsequent system modifications in a dedicated environment with relevant test data.
Development of a comprehensive test file that reflects all business rules would assist in
ensuring the system does not transmit erroneous or incomplete data to IAB.

IAB management submitted two system change requests to incorporate additional edits
into the IRS. These change requests were approved on May 22, 2008, and will be
included in the August 2008 software release.

Management has taken steps to update dispatches for January 1 through
March 31, 2008, that contain missing or incorrect information. Management expects
completion of the updates by August 15, 2008. However, management has not
provided specific instructions for all IRUs to update all the dispatches with errors.

Any delay in implementing the additional edits will add to the backlog of suspended
records requiring manual review and correction. Correction of these error records can
allow this information to be included in supplemental billings. Correcting the existing
error records could cost as much as $666,765 in labor costs. See Appendix C for
further details. We will report these costs as questioned costs in our next Semiannual
Report to Congress.

Duplicate Dispatch Requirements

Management could improve the method the IRS uses to identify duplicate dispatches to
reduce the investigative burden on IRU personnel. According to Handbook AS-805,
Information Security, section 9-9.1.i., “The information resource must provide
mechanisms to detect duplicate authentic financial transactions.” The current method
identifies duplicate dispatches by comparing origin country, origin city, destination
country, destination city, mail category, mail subclass, and dispatch number. Because


                                                    10
Controls Over the International Reconciliation System                                  CRR-AR-08-006


the system requirements did not include dispatch weight and receptacle counts as
additional criteria to identify duplicate dispatches, IRU personnel must manually
research and verify dispatch records improperly flagged as duplicates.

Management submitted a change request to alert users when they are about to create a
duplicate dispatch and allows them to view the details of the existing dispatch, update
the existing dispatch, or create a duplicate. However, this change request does not
include comparison of weight values to identify duplicate dispatches.

Using weight as an additional criteria to recalculate the number of duplicate dispatches
for CYs 2006 and 2007 activity reduces the number of potential duplicates to be
investigated by 55,102 (from 72,774 to 17,672, or 76 percent). Based on prior activity,
we estimate that IRS personnel would improperly flag about 24,733 records as
duplicates for CY 2008. The additional labor cost for resolving incorrectly identified
duplicate dispatches could be as much as $192,703.5 We will report $192,703 as
questioned cost ($38,540) and funds put to better use ($154,163) in our next
Semiannual Report to Congress. See Appendix C for further details.

Management Reports Requirements

The IRS does not have capability to provide management reports for managing key
reconciliation processes. During our site visits, we observed that IRU supervisors had
created several ad-hoc reports to assist in making workload decisions. This includes
reports describing: (1) missing dispatches; (2) unresolved dispatches by country; and
(3) dispatches by assigned IRU staff. Management relied on contractors to generate
ad-hoc reports on NIL, duplicate, and statistically sampled dispatches.

Handbook AS-805, Information Security, section 9-9.1, Information Resource Integrity,
states that integrity provides assurance that under all conditions the operating hardware
and software maintain logical correctness, reliability, and effective protection
mechanisms. Information resources must comply with information resource integrity
requirements by performing data integrity checks. Best practices provide that the
system should include post-collection audit analysis tools that can produce exception
reports, summary reports, and detailed reports on specific data items, users, or
communications facilities.

Management determined the IRS is not a reporting system and would not have
reporting functionality. They intended the Enterprise Data Warehouse to provide
reporting capability. However, this database does not contain IRS records, which are
suspended pending investigation or error correction. Development of user reports will
assist managers in timely identifying and resolving problems for international mail and
reduce the risk of erroneous settlement and incorrect pricing.


5
  $192,703 represents $38,540 in questioned costs until implementation of system enhancements in August 2008,
and $154,163 in funds put to better use projected for 2 years for correction of improperly flagged duplicate
dispatches.


                                                       11
Controls Over the International Reconciliation System                                        CRR-AR-08-006


Inconsistent Operating Procedures

We observed disparities in reconciliation processes at each of the three IRU sites we
visited. For example, one record unit clerk stated their unit did not initiate any VNs for
inbound dispatch discrepancies because they were not aware it was their responsibility.
At another location, IRU personnel were uncertain whether to select volume data from
the Electronic Data Interchange manifest, the loading dock receipt scan, or the IRU
manual entry from billing documents. We also noted different methods for processing
NIL, duplicate, and missing dispatches.6 Management developed an IRS user guide to
help IRU personnel navigate through the system’s menu choices to perform daily
activities. The user guide, however, does not contain instructions on following
procedures to ensure the correct processing of IRS transactions.

In July 2007, GBS management began weekly teleconferences with headquarters and
IRU supervisors to discuss issues related to GBS implementation and IRU operations.
Management decided that development of an operations manual describing standard
operating procedures was not feasible during the implementation of IRS. During our
review, management began developing an operations manual using the content of
these weekly teleconferences and feedback from field personnel. A review of the
June 4, 2008, draft of Standard Records Unit Procedures, however, indicates the
document is a high-level process flow and narrative. It does not contain specific
instructions or business rules on how to select weight values, nor does it define and
instruct IRU clerks on how to identify and process duplicates, NIL, and missing
dispatches.

Best practices require that management design policies, procedures, practices, and
organizational structures to provide reasonable assurance that the Postal Service will
achieve its business objectives and prevent or detect and correct undesired events.

Implementation of standard operating procedures for reconciliation processes can
reduce the risk of mishandling duplicate dispatches and assist in ensuring VNs are
processed completely. This could increase the accuracy, integrity, and completeness of
the approximately 13.5 million records used yearly in the settlement of revenues and
expenses for inbound and outbound international mail. Historical data for CYs 2006
and 2007 show that VNs were prepared for 2,952 of 7,779 (37 percent) of all NIL
dispatches and for 760 of 3,755 (20 percent) of all missing dispatches. Estimated
weights were used to process the remaining 2,995 missing dispatches in lieu of
preparing VNs. Currently, the IRS has 8,136 duplicate inbound dispatches and 184 NIL
dispatches. Without standard operating procedures, IRU personnel could improperly
identify valid records as duplicates or NILs. For example, a valid inbound dispatch
improperly treated as a duplicate may result in revenue loss. The total value of these
8,136 duplicate and 184 NIL dispatches represents $11,726,074 of revenue at risk.



6
  A missing dispatch contains zeros for all weight values and the NIL indicator field equals ‘N’. For missing dispatch
records, the system calculates average weight estimates for settlement purposes.


                                                          12
Controls Over the International Reconciliation System                  CRR-AR-08-006


                   APPENDIX C: MONETARY IMPACT CALCULATIONS

Incomplete System Requirements

Edit Errors (Dispatch Dates) – Monetary Impact

We will report the costs associated with manually updating unprocessed dispatches
resulting from incomplete dispatch date requirements as “questioned costs” and we
calculated these costs as follows.

 Total dispatches:
 Dispatches requiring manual review to correct invalid dispatch
 dates                                                                       44,067
 Total minutes:
 Total dispatches multiplied by 3 minutes processing time per
 dispatch                                                                   132,201
 Total workhours (rounded):
 Total minutes divided by 60                                                  2,203
 Total questioned costs:
 Workhours multiplied by Postal Service (PS) Level 6 overtime rate
 ($37.40 per hour)                                                          $82,405

Edit Errors (Other than Dispatch Dates) – Monetary Impact

We will report the costs associated with manual correction of unprocessed dispatches
resulting from incomplete edit requirements as “questioned costs,” and we calculated
these costs as follows.

 Total records:
 Records requiring manual review to correct other than dispatch date
 errors                                                                     312,492
 Total minutes:
 Total records multiplied by 3 minutes processing time per record           937,476
 Total workhours (rounded):
 Total minutes divided by 60                                                 15,624
 Total questioned costs:
 Workhours multiplied by PS Level 6 overtime rate ($37.40 per hour)        $584,360

The total estimated questioned costs of $666,765 are not recoverable, as the Postal
Service must expend resources to investigate and correct these records prior to
settlement.




                                                    13
Controls Over the International Reconciliation System                       CRR-AR-08-006


Duplicate Dispatch Report – Monetary Impact

We will report costs associated with the manual research needed to process incorrectly
identified duplicate dispatches as questioned costs ($38,540) for the period February to
August 2008 (when the corrective software changed is expected to be deployed), and
as funds put to better use ($154,163) for the 2-year period thereafter. We calculated
these costs as follows.

 Total dispatches:
 Duplicates currently in IRS for the 3-month period ending April 18, 2008          8,136

 Percentage of dispatches improperly flagged as duplicates:
 76 percent of total duplicates: 8,136 multiplied by .76                           6,183
 Average increase in backlog per month:
 6,183 divided by 3                                                                2,061

 Questioned costs:
 Estimated increase in improperly flagged dispatches – February to July
 2008
 2,061 multiplied by 6                                                           12,366
 Total minutes:
 Projected number of improperly flagged duplicate dispatches
 multiplied by 5 minutes                                                         61,830
 Total additional workhours:
 Total minutes divided by 60                                                       1,030
 Total questioned costs:
 Workhours multiplied by PS Level 6 overtime rate ($37.40 per hour)             $38,540

 Funds put to better use:
 Estimated increase in improperly flagged dispatches – 2 years
 2,061 multiplied by 24                                                          49,464
 Total minutes:
 Projected number of improperly flagged duplicate dispatches
 multiplied by 5 minutes                                                        247,320
 Total additional workhours:
 Total minutes divided by 60                                                       4,122
 Total funds put to better use:
 Workhours multiplied by PS Level 6 overtime rate ($37.40 per hour)            $154,163

 Total Questioned Costs and Funds Put to Better Use                            $192,703




                                                    14
Controls Over the International Reconciliation System       CRR-AR-08-006


                        APPENDIX D: MANAGEMENT’S COMMENTS




                                                    15
Controls Over the International Reconciliation System    CRR-AR-08-006




                                                    16
Controls Over the International Reconciliation System    CRR-AR-08-006




                                                    17
